Department of Health and Human Servces
       OFFICE OF
  INSPECTOR GENERAL




ADDRESSING INCREASED ORGAN
     ACQUISITION COSTS



          A MANAGEMENT ADVISORY REPORT




       .. SERVICl


                    Richard P. Kusserow
     t E
       Irdla
                    INSPECfOR GENERA

                         OEI-Ol-81331
                EXECUTIVE SUMMAR
PUROSE
To identif opportunities   for improving the effciency of organ acquisition systems
without adversely affecting the quality or quantity of organ transplantations.

BACKGROUN
This brief report is a follow up to two prior Offce of Inspector General report urging
that the Health Care Financing Administration (HCF A) address the increasing costs
for organ acquisition. It presents the   sae basic recommendations presented in a
November 1988 report. Those recommendations were supported by the Public Health
Servce and members of the professional community, but were opposed by HCF

We reintroduce the recommendations , cited below, because (1) the ineffciencies we
descn"bed in the prior report continue to exist , (2) fiscal oversight of organ
procurement organiztions is stil liited and uneven , and (3) kidney acquisition
expenditures per transplant appear to be much higher than previously assumed.

RECOMMATIONS
   Denstin Prjects Incrpratig Ki Trlan
Support                                                              an Acqn
un Dign Relte Group.
Condt     Pr Aud of Ki Acq Ex              Re           Ce.of       Tr
Eslih Uniorm Fisca Overgh of th Oran Acqn Co of al Medare-
Ce Oran Prem Orantins
Esblih, for
Laboratory Tes
              Reiurem                       Sta Nomlle               of   Pretrlt

Oran  Pr
Alw for On On
              Orantin
                        Med-Ce Laborary for Prel
                                 Se Ar
                                                                    Tesg in Eah
              TABLE OF CONTENTS
.ECU S'UY
INODUCfON
  Pu                                                                     .. 1€

  Backgound ...    8


RECO:MATIONS ..................................                                  3

  Support Demonstrtion Projec Incorpratig Kidney€
  Traplantation and Acquisition under a DRG ............... 3€

  Conduct Prority Audits of Kidney Acquiition Exnditues

  of Renal Traplant Centers                                              .. 3€

  Establih Uniorm      Fis    OVersight of the   Orga Acquiition

  Cots of al Medcae-    Certed Orga Procement            Organi7.ations . 3€

  Establih, for Reimburement            Purp, Stadadi
  Nomenclatue of Pretrplant Laboratory Tests

  Alow for Only One Medicae- Certed Laboratory for

  Pretrplant Testig in Each OPO Servce Area . . . . . . . . . . . . ..           4€

CONCLUSION

APPENIX A
  Comments on November         1988 OIG Management
  Adviry Report Entitled "Kdney Acquiition Cots"          ......... A-

APPENIX B
  Endnotes                                                    . . . . . . . B-
                          INTRODUCTION

 PUROSE
To identify opportunities for improving the effciency of organ acquisition systems
without adversely affecting the quality or quantity of organ transplantations.

BACKGROUN
Prr DIG Reprt


In September 1987, we issued a final inspection report entitled " Organ Acquisition
Costs: An Overvew " (OAI- 01- 86-oo108). That report indicated that organ
acquisition systems were operating without sufficient attention to costs. It called upon
the Health Care Financing Administration (HCF A) to     amend the Diagnosis Related
Group (DR G) for kidney transplantation to include all costs associated with
acquisition as well as transplantation.

In November 1988 we issued a follow-up management advisory report entitled Kidney
Acquisition Costs " (OAI- 01- 88- 01330). Taking account of widespread comments on
the DRG recommendation , this brief report urged RCF A to conduct demonstration
projects incorporating kidney transplantation and acquisition und r a DRG. It also
directed four other recommendations to HCF A, each intended to improve the
effciency of organ acquisition systems without adversely affecting the quality or
quantity of organ transplantation.

The Public Health Servce reacted positively to our recommendations as did members
of the professional community. The RCF A, however, disagreed with the
recommendations (see appendix A). We then initiated the conflct resolution process
by holding a meeting with HCF A officials to discuss the recommendations. As
stipulated in Departmental procedures concerning that process, it was incumbent upon
RCFA to follow up that meeting by presenting a plan on how it intended to proceed.
It did not do so.

Ratina for Repeg Prr Recommtins
In this report , we present the same basic recommendations to RCFA We repeat
these recommendations for three major reasons. One is that the ineffciencies
documented in our 1987 report continue to exist , with Medicare providing 100 percent
reimbursement of covered costs. Fiscal oversight is stil limted, most especially with
respect to pre transplant laboratory costs , and uneven, with 50 independent organ
procurement organiztions (OPOs) being subjected to guidelines and procedures
different from those of the 19 hospital OPOs. Also , there is stil widespread variation
in pretransplant testing procedures , termnology, and costs and unnecessary duplication
of pretransplant testing in various OPO servceeas.

A second major reason for reintroducing the prior recommendations is that Medicae
organ acquisition costs continue to escalate. Although recent cost inormation is
incomplete , we do know that total kidney acquisition expenditures of independent
OPOs rose by about 30 percent from the end of 1988 to the end of 199from $60.
millon to $78.7 milon. 3 These total do not include the substantial kidney acquisition
expenditures of hospital OPOs, pretrnplant laboratories, or Medicae-certifed renal
transplant hospitals , of which there were 224 on July 15, 1991. It is also relevant to
note that from December 31, 1988 to July 15 , 1991, the kidney waiting list maintaied
by the United Network for Organ Sharg (UNOS) rose from 13, 947 to 18,830.
Nearly all of these individuals are incurrg ongoing Medicare reimbursable costs for
tests , whether or not they ever receive a transplant.

Finally, a third reason is that kidney acquisition expenditures per transplant appear to
be much higher than pervously assumed. On the basis of information obtained from
HCF A biIg records as well as from cost report , those expenditures appear to be
closer to $20 00 to $30, 000 than the $10 000 estimated earlier.
                      RECOMMENDATIONS

  Support
  un
           Densn Prjec Incrprag Ki Trltn
       a DRG.
                                                                        an Acqn

   In response to our 1987 report ,   HCFA noted that it agreed in priciple   with the idea
  of a prospective payment approach to kidney acquisition, but expressed concerns
  about the operational details and the adequacy of the cost data avaable.
  recogned the signifcance of those concerns and for that reason urged in our 1988
  report that HCFA support demonstration projects. We reiterate that recommendation
  here and call for HCF A both to announce its readiness to fund such demonstrations
  and to state the specifc questions it expects the demonstrations to address.

  In the interim, as the demonstrations are underway, we believe it is essential for
  HCF A to introduce a much greater sense of cost-consciousness in organ acquisition
  systems. Through the initiatives identifed below it ca make important progress in
  that direction. In the process , it can also contribute to the development of cost data
  that provide a much more appropriate basis for caculating a DRG than do existing
  data, which reflect the inefficiencies of the current system.

  Condt Prri Aud          of   Ki Acqn Exes of Ren Trlant Ce.
  The Medicare intermediaries servg these centers tend to give relatively little
  attention to organ acquisition costs. Ths is priarily. because these costs tend to
  represent a small portion of the overall Medicae costs in the hospitals of which the
  transplant centers are a part. By specifg in an annual audit instruction that the
  intermediaries should give special attention to organ acquisition costs, HCF A could
  add an important measure of fisca oversight and gain valuable inormation about
  current practices.

, In carrng out this recommendation, HCF A should give priority attention to the       19
  transplant centers that also serve as Medicare-certifed organ procurement
  organiztions (OPOs), since they account for a large share of overal Medicare
  expenditures for organ acquisition. However, because of escalating costs , we believe it
  is important to improve fiscal oversight of all transplant centers ' expenditures for
  kidneyacquisition.

  Eslih Uniorm Fisca Overgh of th Oran Acqn Co                              Medar-
  Ce Oran Prem Oranns                                               of al



  It is vital that all 69 OPOs function under the same set of fiscal guidelies and the
  same degree of oversight. This is not now the cae, as the 50 independent OPOs,
  which are servced by a single intermediary, tend to be subject to different guidelies
  and greater scrutiny of their costs than the 19 hospital OPOs, which are servced by
  whatever intermediary servces their hospital.
   We urge HCFA to introduce more consistent and rigorous oversight by using the
   servces of a single intermediary for al OPOs.-Ihould         ca
                                                                 out this
   recommendation in the way if fids to be technically most feasible. For the 19
   hospital OPOs , this could involve the single intermediar servg in an overseer
   capacity, makg recommendations to the Medicare intermediary servcing the
   individual hospitals.

  Establi for
  Laorary Tes
                   Reiur                       Sta Nome                     of   Pr1a
  Pretransplant laboratory tests accunt for a signcat proportion of organ acquisition
  costs. 7 And, they almost certly accunt for a growig proportion, as the number of
  individuals on organ transplant waiting lits    has soared-from 13, 197   at the end of   1987
  to 23,   711 on July 15, 1991. Individual on these lits, whether or not they ever receive
  a transplant, generate substantial ongoing costs for various tests as long as they remain
  on the list.

  Because of widely varyng terminology concernng these tests , HCF A' s Medicare
  intermediaries essentially are unable to determe the reasonableness of the costs
  reported for these tests. 8 To address the situation, we urge HCFA to authorize the
  Medicare intermediary servcing the 50 independent OPOs to convene a group of
  experts to develop a standardized nomenclature for pretransplant laboratory tests that
  all laboratories would then have to use in reporting their costs for. Medicare


                                                            Pr
  reimbursement.

  AHow for On        On Medar-Ce            Laoratory for                Tesg in Each
  OPO Sere

  Enactment of this recommendation would avoid much unecessar duplication of



                      1o
  pretransplant laboratory work that now occurs in many metropolitan areas. This
  duplication , as we described previously, can add not only to the cost of organ
, acquisition ,   but to the time elapsed from the point of organ retrieval to
, transplantation.


  This recommendation, which may call for legislation, rests on much. the same rationale
  that Congress relied upon to allow only one OPO in each servce area. It would
  eliinate competition which serves      to increase rather than reduce costs and would
  provide a central point of accountabilty for intial work-ups, on-going antibody
  screens , crossmatching tests involvig sera from donated organ and potential
  recipients, and other appropriate tests.
                            CONCLUSION

Organ acquisition providers have remained by and large free from the cost pressures
facing the rest of the health care industry. They continue to be reimbursed for all
Medicare covered "reasonable costs " with little incentie to introduce effciencies.
The recommendations set forth in this report offer a way of improvig    thi situation
gradually and carefully, without adverse effects on organ transplantation. They have
been refied over a number of years and have received considerable examination by
and support from the professional community. We strongly urge that they be enacted.
        APPENDIX A
      COMM ON NOVEER 198
OIG MAAGEMNf ADVIORY REORT

      'KNEY ACQUlSmON COST"
           (OAI-OI-81330)
IU!,                                                                          Htalth C.,g
            DEPAlITMENf'OP HE.ALTH   &L   HtJMANSERVICIS                      FlnlnOino Admlnlltrltlcn

I/
                                                1 0 19t5e
                                                                              Memorandum
lite
             Terry Coleman
rom          Actfn9 Administrator
           , O G Management Advisory Report,      "Kidney Acquisition COltS
;ub)ItCI     OAI- Ol- 8B- D1330

            The Inspector General
            Office of the Secretary


            We have reviewed the management report on kidney acCtu1    sition costs"  The
            resuHs of this   management adv1 sory report wl1l be useful to ' us as we

             costs.
            continue" to refine the MediC4re program in the aria 01 organ acquisition

             Our comments on the &pecff1c recommendations are attached for your
             consideration, Thank you for the opportunity to comment on this report.


             Attachment
-- 6
OIG Recomend     tion
support demonstration project incorporating kidney transp1ontat1on) and
acquisition under I diagnosis related group (bRG).

HCFA Comments

At the currtnt ., time, we do not have p'
                                      ans to do & demonstration project on
incorporating transplantation and ac uisition costs into I DRG.

OIG Recommendation
Conduct priority audits of the kidney ac uis1tion expenditures of those

renal transp1 ant centers that HCFA has desi gnated as organ procurement

organizations (OPOs).
HCFA Comments

HCFA instructions advise 1n termediaries ' to c'osely review pass.. through
costs. Kidney acquisit10n costs are     rehthe'y     small in rel t1on to other
pass- through costs. Given the  finite , funding for   udit activities, we
believe it more prudent to focus an areas which Ir more susceptible to
abuse involving s1gn1f1cant1y larger dollar- amounts at 1S U8.

T'
OIG Recommendation
Establish more consistent and rigorous oversight of the HCFA .   certified
OPOs.

.t
HCFA ,Comments

HCFA is current1y developing the recertifying standards package for OPOs.


                   oversee OPOs.
Inc1uded in the package are standards for accounting and fiscal
pro edures. , We have no current p1 ans for desi gnating I s1n;1e
1ntermedi ary to

OIG Recommendation

Move toward the estab'1snment of on1y one Medicare certified laboratory
for pretransp1ant testing in each OPO service area.
Page 2


HCFA Comments

                                                  1ni-t1at1ve. There is no

 It appears that this is not the time for such an'

 current regu1     atb   Y authority in the 

                                                ed1 care ot participation€
                                                           Conditions €


 for providers or suppliers tO des1gnate a sing1. pretransp1ant laboratory

 for. each OPO. C rrentlY, h1$ toeompat1bil1ty testing i s treated  as I

                                                                per..sonne1,€   for
 specialty 1n an independent hborator,y with requirements,
. quality cont"'ol mainten nce Of , records and            articipat1on in a cell
 exchange progr.m., Hi stocompat1bi11 ty , aboratories                    in hospi    s J whethe
                                                                                          The
 hosp1ta1 based or freestanding, must meet the Sime requirements.
 cond1.t1ons do not specify the methodo'ogy a histocom!)at1b111ty laboratory
 must use in testing and surveyors have no means of identifying

 dup1icative pretransp1ant testing.


 OIG Recommendation


 EstabliSh   tor     reimbursement pur ose$, a standardized nomeclature of
 pretransp ant 1abor           to.,y tests.
 HCFA Comments€

 This recommendation could be implemented if HCFA decides it wishes to take

 the 1ead and devote 
 he resources necess ry to force the industry to

 accept standardization. Preparation Of such a list would roqu1r. staff

 wi!h scientific knowledge of llbor tory testing IS we11 as reimburseMent

 specialists. We wi" consider seeking the assistance of the Public Health

 Service in establishing the standardized nomenc'atu e , of pretransplant
   boratory tests.
                                                                    e-"",   J._


          DEPARTMENT OF HEATH         &. HUMA SER                      pUblic tte"ith Service




                                                                       Memorandum
Date      . FES         I:JV

From      Deputy Assi stant Secretary for Hesl th Operat ions and
          Di   rector   Office of   nagement
SubjeCt   Comments on the OIG Management Advisory Report "Kidney Acquisition Costs,
            I-OI-88-01330, November 1988

          Inspector General, OS


               At tached are the PHS comments on the subject report. Since the
          findings and recommendations contained in the report are directed to the
          Health care Financing Aeministration; we have confined our response to
          general and technical c mments.




          Attachment
                        a:1f    , OF 'I PULIC HF1H
                         INSt'tI:JlM GF (OIG) 1\'I(i.1 ADVISUY
                                                           'T OFICESERVICE at
                                                                                       P.tRJHT,
                                                      lnl NXISI OO OOTS It
                                                           01330   NOVH


Even though there were no recomendations to              management       PH in this
advisory report, we support all of the OIG' s recomendations on the organ
acquisition costs issue. The following are our general coments on four of
the recomendations directed to HCA.

          Support Deonstrat ion Projects Incorporat ing                       Kidney Transplantat ion
          and Acquisition under a



PHS supports, in principle, the idea of including standard kidney
acquisition charges in a Diagnosis Related Group (DR). We believe that
the demonst rat ion projects, as descr ibed, would be essent ial for
implementing this policy in a way that would limit the potential for
inadvertently creating disincentives for organ procurement.

         Establ ish More Consistent and Rigorous CWersight                       of the HCA
              rtified               gan Procurement          ganizations
PHS supports the establ ishment of a report ing and monitoring system for
renal transplant centers which parallels the oversight currently being
performed on the independent organ procurement organizations (CPs). CPs

are now reviewed on an annual basis by their Medicare intermediary, and

acquisition fees are adjusted to reflect actual costs.


         Move Towards the Establishment of Only One Medicare Certified
         Laboratory for Pretransplant Testing in Each OPO Service Area

PH agrees that there                         appears to be overlap and duplication of testing in
the hi stocompat ibi 1 i ty laborator ies. However, the laborator ies might
resist consolidation because it may require closure of some facilities.
OIG could consider recomending that a demonstration project be conducted
to determi ne the                   extent       of the problem and the feasibi 11     ty
con so I i da t i on .

         Establ ish for Reimbursement Purposes, a Standardized Nomenclature of

         Pretransplant Laboratory Tests


PHS agrees that the lack of standardized vocabulary presents a problem
determining comparability and con istency of costs among histocompatibility
laboratories.  PHS, therefore, supports establishment of a standardized
nomenclature.
Page 2€


Techn i CA 1 Commen t 5

Page 3 , last paragraph€

OIG should clarify its statement that "            . it is especially important to
take into account the fact that nat ionally        procured kidneys tend to be more
expensive than locally procured ones.

\Ye suggest that    the sentence be changed to read:
      "Kidneys thAt are obtained through the national sharing system, i.              e.,
      the National Organ Procurement and Transplantation Network, tend to
      cost more than kidneys that are ' obtained and used locally.
Page 4 , first full paragraph€

The wording and intent of the third sentence are unclear. OIG states                 "tk
are less certain, however, about whether living related and cadaver
acquisition costs should be included in the mG. The thrust of the
   ommenda t ion is t ha t cadaver acqu i sit ion cos t s shou I d be i nc I uded   in the
DR,  but the wording of the sentence contradicts this premise.

Page 6, fourth paragraph€

The second sentence should be changed to read               . those on transplant
Ylaiting lists       " instead of " waiting tests.
                                                            (') "                                                                  ''




                                                                     :1';'
                   ;:l'                                  (;!IJ U,!:.111              l'JDJt!ll1:j- .i-Jr::rJ -

   New Inspector General stUdy is remarkable
   They actualy litened                                     to our criticisms & suggestions
       I'f
                                                            .i; an (2) Thy in-
                                                                      dr ot.
                                                               pr an moed                                    I believe we shuld al cncourge
                                                                                                            BCFA to esli IU ltes. If
      :i'                                                     Th n:t      rele      sh an
                                                                      cbge Hcr A an th tr-
                                                                             is .                    re-    kidn ICsition co is to be inlude
     i':f:'                                                 po tht
                                                            plt field to
                                                            11 coider th
                                                                             re pr,   to five pots. At-
                                                                                                I beeve
                                                                                                            in an expe DRG 30, it mus alow
                                                                                                            for th   foll:€
                                                                                                            . Paymt for     wo
                                                                                                                             an evuaon

                                                            di trsplant community           is rey              of th repien at th trla ce
                                                            move ahd on th chalenges                            pr
                                                                                                                se tototnlant.    It do no mae
                                                            in th new doment.
                                                              Since th fi
                                                            1987 ,   may signcat
                                                                                    re wa       is              ro
                                                                                                                no diyas
                                                                                                                         expe th repiet s ne-
                                                                                                                                 wh he or Ih is
                                                                                                                           to do ths,
                                                                                                                                     with th tr-
                                                                                                                plt pr.
                                                                                        chage
                                                            cu: (I) UNOS is now eslis;          have oc-


                                                                Routi Inui" is in effec in .               . Unus          kiys ar inlud in th
                               i.:                          majoty of st; an (3)            sin                 co, . pot th OIG          ha now
       n Seteber 198, th Ofce
       the Inspector General (OIG)
    ... publied a              re ex       on organ pro
                                                            St
                                                            Prurment    Ortion
                                                                       Metlita
                                                                                 (OPO) for
                                                                               Statica
                                                                                                                to.
                                                                                                           . Lo prlem wi be coide.
                                                                                                               Th ca be prlemc with a na-
  cut,
  anyz
                   which "IS
                         tI
                            and
                                                            (SMSAs) ar now in pla naonwi.

                                                                                                           .
                                                                                                               ti DRG 30.
                                                                                                               Inon wi be alow for in th
  il
  198 bses.
              in    Nephrlo News
      In Its Novembe an Debe
                                                    Is-
                                                                                                               fU in so ma (b th
    In Ocbe or 198, I spt abot
                                                                                                               prnt DRG upd),
                                                                                                               Jrs isaralways
                                                                                                               1b                 tr co      which Con-
                                                                                                                                          to cut.


  RI
  two bours with Inpeor Geera
              Kusrow, pointi out er-
  ru in th report, and pretig                                                                              velop .
                                                                                                                          no ea
                                                                                                           co,prybut thyworg nesaryar

                                                                                                                                          reimbWment
                                                                                                                                                    to en-
                                                                                                                                                    to de-


  "bat I believed WIS the
  county' s viw.
                                             trlat                                                         sym.€
                                                                                                           CONDucr PRIORI AUDITS€
    I mus emphaiz that dur                         th                                                      OF THE KIDNEY ACQUISITION
  diion, I WIS impre with two                                          th
                                                              Yet. depite            stbilizg move,        EXENIT OF THOSE
  th:
  . The Inper Geer, afr lok-
                                                           tb has ben no
                                                           or anyone else on th
                                                                                    rese frm HCFA
                                                                                     issue rase by th
                                                                                                           RTCs THT HCFA HAS
                                                                                                           DESIGNATED AS OPO
                                                           OJG two yea ago.                                 I am no sur wha a prorty audt is,
    Ing at the transplant data, said
                  wr,inden.
    "obviusy we wer
  , fu prevalenc with                           "e con-      Let me review the fi ve points Dr.
                                                           Yesian now        prpo. an tr to se
                                                                                                           but  IISce ti fr, ah
                                                                                                           with .
                                                                                                                    it me an aut

  . He tok the        ti crti
                          red pen-   to                    wht wil be involved.                            OC audts. Th is th on Il in th
    8Iy to the other                           and sug­    SUPORT DEMONSTRATION                            re th cotiue to dend on anee-
                                                                                                           do         cl
    psns made by the tranplant
    county Nephrlo
                                                           PROJECTS INCORPORATING
                                                           KINEY TRASPLANATION"
                                                                                                                     (you may rembe, th
                          In                   News &                                                      wa a majoprlcm in th 1987 rert).
    lulUs.                                                 "CQUlmON UNDER                                      Thus, aptly              may pee
                                                                                                           thlcy acti
                                                                                                                                                    feel' ,
    Tbis was encouraging, but not                          EXANDED DRG 302                                                              co
  much el "IS              hea
                  rrom the OIG,                             There wer may commnts an sug-                  8C
                                                                                                           fuy elble for Medca re-
                                                                                                                 (re      an (2) may not be
                                                                                                                             high);
                                                                                                                                             ar: (1) not



  rorti
  and l bad presumed It was an
               I reed a coy or
                                                           geons made
                                                           OI now
                                                                 te,   pr
                                                                        or
                                                                              in 1987
                                                                            me.
                                                                                        , an wht th
                                                                                 is no ony
                                                                                fu alege th th may
         Ri
  an updte on "Kidney Acquiition
  Co" over
  1W, but edte by Ma Yes,
                                                 - wha ar th mets of th pr.€apy tre in re U8Jat cente
                                          P. Kau 11
                                                           1I, but

                                                    OIG ma th foOowig
                                                                      it nee to be       in

                                                                                                cot€ C\,
                                                                                                               It is




  Pb, Regln Ge
  th Nort Regn.
                              ror                          pots:€
                                                           . Alt two ye have pa,                   an€
                                                                                                         on ca
                                                                                                           or DO,      be      dc
                                                                                                     (RTC) th ar thir own OPO. How-
                                                                                                                          if th is
                                                                                                                                   pele " ar
                                                                                                                               th "may
                th rert
  me coti
    I woud lie to us                              as a       no plan ha ben forcomig                       not identied, and no infonation is
         or           on whe I be                            HCFA.                                         given.
  lieve the kidney transplant field                                  expe dierenc beeen 10-  It woud ap, thgh, th
  stds In mi- I98.
  REKALE REPORT
                                                           . The
                                                           , cay pro anas,    naony sha ki                      to  of quetion ar going
                                                                                          unti a sty is colet, an quaty
                                               re-           to dee if th aleged imved da ar ge.
                                                             kidnys must be         in
    The OIG' upd rert is
  able for two rens: (1) Th obviouly                         suival reults in shag ar wor   Th re doe ma a goo pot, in
  lined to al the crtici                    an sugges-       the cost.                    that hoita cot repo we moifed

16 Nephrlogy News & Issueslay 1989
                                                                                          -- -           ------ - -
                                                                                                                 ..         ---. -




  in 1985, an HCFA' s
, was tht thy
  Tim ha now     pa,
                           excu in 1987
                 ony had one yea s data.
                          and at leat
                                               unforly, so
                                               may depe on
                                               exist, but also to
                                                                        ti €



                                                                     Uo reh.   J5 DO ony€
                                                                                                  in

                                                                                                       Th
                                                                                                  esy Ch ab
                                                                                                            ot
                                                                                                       Neplogy News

                                                                                                                      c:         luu

                                                                                                                             th we ma,
                                                                                                                            th OIG' ssta-
                                                                                                                                               in 1987.


  yea of cost     report should
  available for review.
                                  now be       (My stament, no th OIG'
                                                 Th one cot          quo                         ha   ditig    sh
                                                                                                  mets afecg kidny                              an per-
     Since ths   inonntion is apntly
  now avaiable , th DIG edtor,    Dr. Yes-
  sian, suggests a priority study to see
                                               sian tht I believe
                                               th Amrica Soty of
                                                                    must be    su,
                                                                                by Dr. Yes-

                                                                               Hi-               believe
                                                                                                       If ti
                                                                                                            HL
                                                                                                             ar vad.
                                                                                                          ty WlDt to      tyg
                                                                                                                                 tying, I do

                                                                                                                                   va
                                               bilty an Immunenetics (ASHI com-                  to th disblieve, thy mus prnt
  whar th figure show. Ths would ap-
  pe   to be a sensible suggestion and
  shld be  done. In addition, when all
                                              pe th     crh
                                              . ment that th reiving cete mus re-
                                                                  an th HLA
                                              ing. I do no believe ths is th ty of
                                                                                                       S. da. At th
                                                                                                 unpuled
                                                                                                 ing of "
                                                                                                                          ti, thy
                                                                                                                  opty with th Ih-
                                                                                                               zero mismatched" kidneys.
                                                                                                                                                have an


  RTC ar studied, cots ca be com
  beee th
                                              duplication th DIG was refeng to,                  However,       tb ar tw prle in my
 an the
                witht thir own OPO,
           19 RTC with them.
                                              an it was  cey   not wh I           disc                                COlltinu         ' 011   ptlg
 ESTABLISH MORE€
 CONSISTENT" RIGOROUS
 OVERSIGHT OF THE€
 HCF A.CERTIFIED OPOs
    The ai her is to have all OPOs,
 independent an hospita-   ba, operate
 under the same fisca guidelines and
 overight. Ths is a point tht has ben
 ra    before by the trplant commu-
 nity, an Dr. Yesia quotes Dr. Chrs
 Blagg on this point.€                                                                Free your patients
   This would prably, as the DIG sug-
 gests , reuir the hospita- ba OPO
 keep a separte set of boks, but it
                                                                                      frm medication
 would seem the information obtained                                                  worries.                        For their
 would be well wor this extr effort,
   The DIG' s suggestion that HCFA€
 conduct a pilot study with a number of
 RTCs, and individual intermediares, is
 a very goo way    to tr and work out
.these difficulties. We would agr with
 the DIG, that more rigorous and sta-
da oversight is neeed , and the pro-
posa sems reonable.
arIn points 4 and 5will
      where thre
                   , the DIG moves to
                        be much more
contrversy and even reistace. In        re-
                                                                                               prram il no 8Vilae that
                                                                                      A natiowide
viewing thse two items, I wil add some
commnts beyond those made by Dr.                                                      prs all meication servics-fr fillng
                                                                                                           dire biling
                                                                                      prnriptions to delivry and
Yessian.                                                                              inlurance copanies-abslutely           fre.
MOVE TOWARD THE
                                                                                      Your eligible patients wil      ner He a
ESTABLISHMNT OF ONLY
                                                                                      meication bil again.
ONE MEDICARE- CERTIFIED
LAB FOR PRETRANSPLANT                                                                 Th Uftime Medication Hrvice from
TESTING IN EACH OPO                                                                   Stadtlander. Pharmacy is remar1bly limple
SERVICE AREA€                                                                         to apply fo      anus to use Jus give us a call;
 Quotg the DIG' s report, " th time                                                         ll be happy to answr an of yor quesions.
is right for movement in this dirion.                                                 And yo"     be able to ofer yor patients
In its original 1987 report, the DIG                                                  exra lpeial helping hand. With the         lifetime
claimed: (1) Wide varation in testing                                                 servic     fr    Stadtlander. Pharmacy,

proures and cost; (2) A shar in-
cr     in lab cost for those on trplant
waiting lists; and (3) Some unnecssa                 Call toll- free:
duplication of pre-trsplant teting.
                                                     800.238. 7828
  Naturaly, thes accustions raise an                 In Pennsylvania,
                                                                                      3600 Laketon Road
outc from a number of tissue tying                   800- 231-7828                    Pittsburgh. Pennlylvania 15235
grups, One can understad this , since                                   CIRCLE READER SERVICE CAR               NO. 49



                                                                                            May 1989/Nephrlogy News & Issues
                                                                      fbiiYfCl)hli
                                                                                                                     ble ovight Th fi th de with
      Continued from page /9
                                   mus be cosidere as we tr to be tis-
     mid.                                                      cay reponsible.                                       ar   where HCFA cod now
     . There        is confusion abor wb the
             da show ro dare. Paul Ter,
                                                                  To solve th OIG' s lasr two
                                                                                              pr­ sjght
                                                                                                    pruce cor dara and imprve over­
                                                               aJs, j. , one tissue typing lab for eah
                                                                                                                                                                                        move to

             Pb, says ir is goo, 8D UNOS says
             ir is no goo. I say a " pox "
                                                               SMSA, an couctg a           sra grup 1b th pr                                                      ar DOW in                 HC-
             of my fren'      hos. Th
                                             01                of tets, I would   sugges th followig:
                                                               . Th Amca Soiety of Tralar
                                                                                                       s co , an we woud
                                                                                                                     FA'
                                           lranr                                                                     HCFA to move as raidly
             communiry is made up of 8dults;
             sh   us th   da anlet us deide.
                                                                   Physici (AST) an th 

                                                                                                                 imlemt tb VC
                                                                                                                 geon. Susg,
                                                                                                                                                                ralead, su­
                                                                                                                                                                        as possible



                                                                                                                                  en fr
                                                                   Sociery of Transplanr Surgeons
                                                                                                                                                                        lbt
         so
         Any deICieny is going to co
                 anyway.     ir ba         pr,    for              (ASTS) each appoint rwo
                                                                   tives who undrsta wha is
                                                                                                reta­
                                                                                                 reuir
                                                                                                ne­
                                                                                                                 have
                                                                                                                 but have be         moJe
                                                                                                                                                               1 mighr
                                                                                                                                                              no jus      010,
                                                                                                                                                                    by inreon
        80 be ir, let s ger them our in th opn.
        An exle        of rh prlem is rb we
                                                                   in tissue tying, but ar 00
                                                                   ily immunologists by trnmg. In ad­
                                                                                                                 with th                 trlar coty.ons
        mi
        do DO even 1cw how may ze

        plte
                  kiys have be ba­
              in th 1a 18 mothWHY
                                                                   dition
                                                                   be bia
                                                                          th      repretatives must not
                                                                              in favor of eithr acerma,
                                                                   or th privat ser.
                                                                                                                 su ryg
                                                                                                                 age th
                                                                                                                          Th 1a tw

                                                                                                                 wirh chage
                                                                                                                                          ar.
                                                                                                                                                 tht ar ovauc in th ti­
                                                                                                                                   pele involved to mo
                                                                                                                                                      wod li to            en-
                                                                                                                                                                           for
        NOT?
    . Th senc prblem          is tht eVeD if the
                                                                                                                 in a resible maer.
                                                                                                                 shw th govcmnr thar we ar
                                                                                                                                                                         Th woud
                                                                                                                                                                                        wig
       da sh
       ge m   going to
                      matcing is ber, th sur­
                               thr loy
                                                                                                                to do ou pa inth ti
                                                                                                                rcrrl in an ar nee                                                  of
       us kidnys do justclaias well. Wht                                                                                      ce
                                                                                                                      I am almost
                                                                                                                                        mog.          thar
                                                                                                                                                              thr some of
       ha to be don is ro also                                                                                  crticism wil be chenged. Howeve,
       on thpa               m us
                                      collec data
                              lcdnys tht                                                                        le me clos by sayig tht th OIG has
                                                                                                                                  in list to ou
             over ti (five ye mi­
       loy, prumably in a much                                                                                  done a rus-ra jo
                                                                                                                crticisms an
      mum), th lcdnys do as
       li.
                                                                                                                                       an        suggestions,
      zero mismarched shippe kidneys
      th mag is nor wor th effort
      or th cot Whe we must be
                                           well as
                                                                                                               in
                                                                                                               EiID"
                                                                                                                      re
                                                                                                               rating thm in its late report. Le us ac
                                                                                                                           to th OIG' s chenge.
                                                                                                                              Ntlr:Dr. HII iI           aJ
                                   pant,                                                                       6w_Md                                 iu; pm.,
                                                                                                                                                                        /r
                                                                                                                                                                             .nt
                                                                                                                                                                                   ES



                  tn
      it would pemaps be eaier if we                                                                           7X: Md                                                                   '., fI
      at lea                                                                                                   Ne             Iu, or       Ed NA

                   with th eay
      tion as it emerges.
                                           inon­
                                                                                                               dtr
                                                                                                                    ot
                                                                                                                     1M    op
                                                                                                                          fI tJ    -u.
                                                                                                                                            ptri
                                                                                                                                             'T do
                                                                                                                                                       uplM
                                                                                                                                                           rwranu
                                                                                                                                                                  Mr 1f
                                                                                                                                                                                        tI.
                                                                                                                                                                                          1t1)'
      Befor I suggest a posible solution,                     . UNOS would appinr four resen­                  1I,                       ,. or                Ne otlu.
   let"s look at the OIG' s Jast
                                 prposa.                        tatives, peps   two horn HCFA ir­
                                                                                                               Continued from page 23
                                                                self, an two scientist or ecnomsts
   ESTABLISH, FOR
                                                            who could help in this review.
   REIMUREMENT PURPOSES,                                 . ASHl would select a group thar
                                                                                                            whe it concived th                              OPI in th 1984
   A STANDARDIZED                                                                                          NationaJ Oran                         Traplanr Acr, an re­
   NOMENCLATUR OF
   PRETRNSPLANT
                                                           would presenl ro the advisory com­
                                                           minc, as suggesred in I and 2 above,            afmn the OPr'
                                                                                                           Amendments to the National Organ
                                                                                                                                                            ta in th                    1988

   LAORATORY TESTS                                         a prposa that would ental the fol­              Tralant Act.
     The OIG again, prents                                 lowing:
                                    compeDing,                                                                       Chlenges wil obviously contue in
   albeit bref data that suggests ther is                . A plan for combining rissue ryping
                                                                                                           1989, an                     fondale ta                do lie ahead.
   wide varaton in chaes for tiue
  ing tets. Before one
  must be
      sa        cen
                                 accpt ths,
                  thr we ar compng
                                                  we
                                                               las in major    cities in much th
                                                               way OPOs were combine; i.e., ei­
                                                               ther work il OUI yourlf,
                                                                                                   sam
                                                                                          or HCFA or
                                                                                                           Thes inlude stgtnmg
                                                                                                           velopment ro provide
                                                                                                           inro OPT activities, brodening the
                                                                                                                                                              in    region de­
                                                                                                                                                                                        inpur
  the     tets, i. e., apples ro apples.
     In addition ,    the OIG points oul
                                                               UNOS wil solve il for you.
                                                        . A battery of tissue typing lesrs rbal           sc of commnc inr to th bo,
                                                                                                          and contiuing to fulfll and imprve
  th Medca inteares ar rey                                     reuired ro produce a        sarisfactory   sece regarg OPr corr re­
  a por poition ro derennne whar is re­                        trlant                                     spibilties. 0
  sonale.                                               . Relative cots for such        rets.
                                                                                                                                                 E#
    Havig benas to help adjudi
  in th ar by our loc caer , I ca
                                                          I believe this approach is renable
                                                        and would be advantageous , since ir
                                                                                                          Edor , Not:
                                                                                                          mI     Col.
                                                                                                                           Bt
                                                                                                                         Vir.. MEd         Jr /r
                                                                                                                                           aJ
                                                                                                                                                       nc 

                                                                                                                                                       Vir.
                                                                                                                                                                  . U
                                                                                                                                                               CII. ...
                                                                                                                                                                              fr MMi.

                                                                                                                                                                                          U..
                                                                                                                                                                                        Ed.
             thr ir is diculr to be co frm th trlar county
                                                                                                                 iI fH. --




                                                                                                                                                   --pt-.

                                                                                                                              dI

  cey
  ce how ag                                           rensible
                                                        se.          we do Dor move in a
                                                                                                    it­   II MI               SE,.:
                                                                                                                                      . SI
                                                                                                                                                 f/ --.. 

                                                                                                                                                                 4/..         8/, .      "It,


                  pertnr some      tets ar, an          way to solve thse issues (tissue tying),
                                                                                                          Gntw
                                                                                                                                       MW.
 . why thre is not a commn banry of
  tets. Appntly, ASm ha                                 thy will be solved for us by the gover­                1M op
                                                                                                          ..., dw
                                                                                                                           UNOS'

                                                                                                                             tI.
                                                                                                                                      or pD
                                                                                                                                         'T do
                                                                                                                                                   Gt            Iwil tu ItIy
                                                                                                                                                                              CP,
               st
                                                                                                                                                       rq    tI
                                                        menr.                                                                                         Ne ot 18,
  rh prblem, and
  li with
                          trg ro genc
                         is
                        nomnc1a.
                                                                                                                                   or


                                                        CONCLUSION
    If thes re comp 20% of kidny                              In   sum, the OIG' s updat on kid­                            mOltS! Advam' 1OfiI
  acquisition costs, as is state by the
  OIG' s report, then these issues rely
                                                        ney acuisition cost
                                                        ro reuce costs and give
                                                                                  pro    tive ways
                                                                                    more responsi­
                                                                                                                                      es. CaI
                                                                                                                             (215)489-2357.
26 Nephrlogy         News & Issues/May 1989
                                                   ansplant Cont oY!r                                 sEi'

Inspector General' reprt encouraging
                                                    Contrm' ers;es column (NN&I, May             sesible way to develop one. It would
                                       n D.         1989 issue).                                 be ba    on sond data reover over
                          Hai, CPTC
                          EuUlI\lC Dior
                          SOh-- Oron 

                                                      I applaud Richard Kusserow and his
                                                    staff for the content of this document. It   aph               ce
                                                                                                 a period of time. 111        that this
                                                                                                          would be much mor paatable
                           Dolla-"TX                is refreshing to know that there is a        to organ prourement organizations
                                                    system in place where members of the
                                                    pri vate sector can spek and be head by
                                                                                                 (OPO)   th   would be th immeate
                                                                                                 establishment of a DRO for kidney
                                                    the federal government.                      lCuisition.
                                                       The focus of the Sept. 1987 report           . Cocurrntly, I would remend
                                                    and the new management advisory              initiation of a systematic study to
                                                    report (Nov. (988), is on prmotig            detein th effca of a DRO for
                                                    cost consciousness in kidney acquisition     kidny lCuisition. While   a DRG may
          e Sept. 1987 repon from the
Ofce of the Inspector General (OIG),
                                                    systems. The significant ' differ            we out ineffcient OPO an      reuce
Organ Acquisition Costs: An Over-
view " generated considerable attention
                                                    the two documents is that the new report
                                                    recognizes that some of the measures
                                                    previously outlined might cause a
                                                                                                 de
                                                                                                 Medica cots, it may also caus a
                                                                                                 1r.
                                                                                                          in organ availabilty in some
                                                                                                       In otr wor, th meical impact
and commentary, much of which                       reuction in kidney availabilty.              must also be coidere along with the
appeared in   Nephrology News             Issues       After taking that into consideration,     cot savings.
(Nov. & Dec. 1987).                                 the OIG developed five reommend­                . Conduct priority audits of kidney
   In response to the significant                   ations:                                      acquisition expenditures of renal

feedback on the final inspection repon.                . Suppon demonstration projects           transplant centers (RTCs) that are
the OIG has       produced a new                    which incorporate kidney trans-              designted IS OPO.   Th    trsplant
management advisory repon. " Kidney                 plantation and acquisition into one DRG.     center- baed OPO have tyicaly ben
Acquisition Costs:' which was                       If. in fact. a DRG for acquisition is        subjet to only minimal overight, and
addressed in Dr. Alan Hull' Transplant              imminent, this seems like the most
                        (conl;nu d on pagt 46)




                                              CIRCLE READER SERVICE CARD NO.

                                                                                          Octoberl989/Nephrology News & Issues 43
               '__. ,.                                                                                                    .......................................
                                                                                                                            ................................,........
                                                                                                                           ........
                                                                                                                               "'''''
                                                                                                                          ......
                                                                                                                           ......        ...............................
                                                                                                                                       ......
                                                                                                                                         .......................
                                                                                                                                      ........"........
                                                                                                                                .......
                                                                                                                                   ....
                                                                                                                                    ....         ........ ....                  .....
                                                                                                                                                                           .............
                                                                                                                                                               .........,..........
                                                                                                                                                           ...........                     ..




                                                                   Renal Nutrition

       Teaching about                                               nutrition in anemia
      (continu dfrm pag 20)                                     Comonly Use. 14th Ed" J. B. Lipplll Co..                       II. M Prnlion an Mangement
      Exercis Program                                           Philadelphia, 1985.
                                                                                                                            Overtoa in Dialysis Pllients.
                                                                                                                                                                                                  of Metal
                                                                                                                             " symp. sps. by
        Much reseah is being conducted on        3. Pn. C. : Ealon. J. ; KjeJ/stra, C., - Vilain
                                                                                                 Univ. of Miami Sch. of Med.. Miami, FL
                                             C Intoxication   and   Hyproxalemia     in                                                 Jams
                                                                                         Clroic Wincheer, MD; Allen Alfrey, MD: Jack Cobrn,
      ways to improve the dilemma of anemia.
      Drs. Andrew Goldberg and Jierschel
                                             Hemodialysis Patients, " Nephro. 39: 112.116, MD;
                                                                1985.
                                                                                                             Shenard. MD; " Isidro    Do
                                                                                                                            MD; June 3. 1988.
                                                                                                                                                                                                  Sausky.
     Hanr, both fonnerly of Bames Hospital                           4. Thompso. C. : Weinman. EJ..                                12. Wante.
     in SI. Louis, MO, showed in 1978 that Seal) Oxalosis of Renal Failure, " $em. in Overoa in Dialysis J.Patienls.  F" M Magemel of Iron

                                             Dial., 1:2, 94- 99. Apr. 1988.                                                 " Se. in Neph., 4
     regularly scheduled exercise progrs                                                      (Suppl. I), pp. 22.26, 1986.
                                                  5. Haner, H. : Klahr, S. : 51atopalsky, E.,
     may improve anemia.                                                                          13.
                                              Prvention of Renal OsleoySlrohy, " ASAIO J.. W., et ai,
                                                                                                       Slaopsky.  E.; Wens.  C. ; Finch. J. ; Le,
        For patients who tend to be a "couch 2. 136. 1979,€                                                  Use of Micrapsulated Can
                                                                                              in the Remal of Aluminum in Dialysis Pa-
     potato, " even walking 20 minutes a day      6, Slataplsky. E. : Cobrn, J.. M 80n and€
                                                                                              tielS, " ASN Abstrats, 771., 1985,
    could represent a noticeable improve­ Mineral Disturbances in Renal Insuffciency,"           14. Hakim. R.     ; Sculma, G. : Larus.
    menl. Patients should ask their physi­      Handbook of Renal Therapeutics. Plenum M.. "Hemrfusion in
                                                Publishin Co.. M. Maninez- Maldonado. ed.. p. num-nd Iro.            the Tretmnl of Alumi.
    cians to make sure they are a candidate for 397. 1983,€                                                   Induced Bone Disease. " ASN r
                                                                                              Ab5lrat5, 6SA. 1985.
    an exercise program.                                          7. Slivellln. J. : Hakim. R. : Schulman. G., et
                                                                                                                  15. U. S. DHHS. PHS. FDA. Center for De-
                                                            al. " Iron and Aluminum Chelalion Kinetics During vices at Raiological Heallh, Rockvile, MD. FDA
                                                            EXlended Dderoxamine Therapy in Fe                     Loded Safet)' Alen. Chloramine Contaminalion of
    Editor s NOI : Ms. Harum is th  M' nalional             Hemodialysis Palienls,"ASN Abslrals. 1985.
    manag r for nutritional s n'ic s aT Hom                                                                                Hemodialysis Waler Supplies. Lener 10 Hemodi.
                                                         8, " Innovalions in Sorbenl Technology,
    /nT nsi\'  Car , /nC' Sh has puhlish d 20 Houston., TX. Oct. 29. 1985. reprinted from New alysis Persnel. Feb, 19. 1988.
    a,.ic/ s on ,'arious asp C'TS ofrrnal nUTriTion, Dimension s in Dialysis. Vol. 3. No. I. published by     16. Goldberg.   ; Halberg. M., " Benefits
                                                                                                          of Exercise in Hemodialysis Palients.
    and sh  is a mtmhtr oftht Editorial Ad\'isory Erika. Lifechem &. Nalional Medical Care. July                          Reseh, 27, 4ISA. 1979.
                                                                                                                                                                                                " Clinical

   Board of   Nephrology News and Issues.         1986, .
     REFERENCES                                       9, Chan . T.      : Barre. P.. " EffecI of
       I. MassI). S.                              DesfelTioxamine on Removal of Aluminum and
                      : Kopple. J . P., " Dielal) Therapy in
   Renal Failure. " in Quick Reference 10 Clinical Iron by Coaled Charcoal Haemoperfusion and
   NUlrilion. 223. 231. L.H. Seymour (Ed.
                                                             Haemodial)'sis,''Lncel. lI: 1051. 1983,
                                                                10, Parisol1o. M. : Scherini, E. : Nardacchione.
                                                                                                                                                  Index of€
   Philadelphia. ), B, Lippincoll Co.. 1979,
       2. Bowe &. Church. Foo Values of Ponions               : el al. " Is Desfemoxamine Thrapy Safe?,
                                                           Aspecis of Renal Care. I.pp. 12- /6. 1986,€
                                                                                                                                         Advertisers
    HCFA: consider DIG proposal€                                                                                           Amgen._..,.......,..............".... center sprd
                                                                                                                           Brodley.Jams Corp. (RSC               I1S)
                                                                                                                                                                                   ...... ..page 39
  (conTinutd from pagt          43)           prelaboratory tests. The currnt system                                        Bunoughs- Welcome............. .. pgs. 16-17
  I believe the proposed audits are extraordinarily costly and complex. with                                                Chugai- Upjohn (RSC   14)........................
  reasonable. in order to fully assess kidney many different laboratories using varied                                                             inside front cover
  acquisition expenditures.                   tests and combinations of tests.                                              Dialysis Assoc. of Palm Beaches
        . Establish more consistent and€ Undoubledly.                                                                      (RSCII)....................................... page
                                                                                        Medicare and its                   Dialysis Management, Inc (RSC '36)
                                                                                                                                                                                                      41
  rigorous oversight of HCFA-cenified                     intennediaries must find this process€
  OPOs. The OIG recommends a pilot test.                                                                                                                         ..... .................. page 3
                                                         perplexing. I believe, therefore, that€                           Enviromental Water Tech                             (RSC'29)
 using a single intermediary for implementing this recommendation
 independent and trnsplant center- based would be a reasonable and significant Euromed Pructs (RSC '84)...... page 39
                                                                                                                                   page 43
 OPOs, I believe this is a goo first step step to take in promoting cost Heallhcare Suppliers, Inc. (RSC , 18)
 toward fiscal consistency, and I agree that consciousness.                          ................. .......... ................ page 45
 it should be implemented.                      Ihopethenew OIG recommendations€ Home Intensive Car. Inc. (RSC '3)
       . The least contrversial (but probably wil be seriously considered by the Health                                                           inside back cover
 the hardest to implement) recom- Care Financing Administration (HCFA).                                                   Hospal Medical Corp. (RSC'I)
 mendation is to                move toward the         I would also encourage HCFA to carefully                                                        back cover
establishment of only one
                                                                                                                          Interconlinential Medical Services
                              Medicare- evaluate the impact on organ procurement                                          (RSC '7 ).....................................page 42
cenified laboratory for pre-transplant of a DRG for kidney acquisition.
                                                                                                                          Millpore Corp. (RSC 1f8)...........page 40€
testing in each OPO service area.                                                                                         Nephrology Managemenl, lnc.€
      The problem of uMecessar dupli-€                  Edi         s NOT     , ST   phtll D'l!a.id h                     (RSC 'S9)................                   page ) 8

                                                                                                        a.s stn'
cation of services and associated costs €                 ar/ous Ttchmc'al           and admlnlsu'aTl' t     pOSTS In     NMC- Medical Pructs Division
have been long                     recognized by        throrganprocur mrnTandimmunolog)'fitlds                            (RSC'19).................................. page II
    l"
prolesslonals 10 the field. as well as by €             sinct     /974,     Hr r ai"td a BA in hi%                        NMC- Medical Pructs Division
Medicare. yet no substan               lve steps have
                                                                  111'    OJ ISSO/l' I,   T, ..,UIS.
                                                        anunrh rofposfSinproftssionalassodaTions,
                                                                                                       an as\'fronr
                                                                                                                t        (RSC '20)................................ page
been t         ken to reduce this unnecessary
                                                                                                                         Pentech Infusions (RSC Il9)......... page 6€
expenditure.
                                                        including prn ofTIr    AnrC"r. Trallspl, Coord.                  Renal Syslems. Inc. (RSC '38).... page 15€
                                                        A.!o(', (NATCO) in  /986- 87. and Tht hoard of                   Sandoz Phannaceuticals Corp.

      . Establish, for reimbursement €
                                                        th.-Amel: COllncilOil Transpl, (ACT)in /986-                     (RSC 146).............................. pgs. 47.€
purpses. a standardized nomenclature of 88
                                                                                                                         Stadt landers (RSC 1t83)............... page 14€

  T__ L__
Employee Benefis Division                                 Chidghan J. Dave
 151 Farngton Avenue                                      Mage
                                                          Merv Admtrali

Harord. CT 06156

                                                          (20)
                                                                  56'             IMedicarel€
 March 1, 1989

                                                                                  qE:IVED
                                                                                    - OIGIQ4


                                                                             Af
Richard P. Kusserow

Inspector General

Department of Health & Human Servi

HHS North Building .
330 Independence Avenue, S.                                                         ...-., h "
Washington, D. C. 20201

Dear Mr. Kusserow:


We are       in    receipt
                  of a management advisory report
enti tled, " Kidney Acquisition Costs. Attached, please
find our comments in response to the recommendations made
   this report.


If you have any questions relative to our comments or
if we can be of any assistance, please contact us.
Sincerely,

                        ve'   . Manager.
Medicare Administration, M323
Aetna Life Insurance Company

/jc
Attachment
         B. Schumaker, Director, HCFA

         R. F.    Weingartner, Director€
         M. Yessian, Regional Inspector, OIG





                         J
tna Life Insurance Company
                      One of the ..NA LIFE & CASUALTY companies
                          REPLY TO OIG REPORT€


      Rccommenda ti on:
      Support demonstration projects incorporating kidney
      transplantation and acquisition under a DRG.
      Commentary
     A demonstration project to determine the feasibility
     and impact both on procurement activity and on cost
     savings thorough implementation of a DRG for
     transplantation and acquisition, is a very supportable
     issue.
    In this manner, both acquisi tion cost and procurement
     acti
        vi ties can be studied separately, yet combined
      th the transplant center activities to determine
    an overall DRG.

    This project could avoid the confusion and sometime
    disastrous effects when large numers of
                                                 facilities
    are impacted before adequate information is available.
    As the control numers within the universe sample can
    be maintained at a reasonable level, and as the area,
    size, and complexity of the facilities would be known
    up front, this project would appear to offer the
    greatest possibility of success.
    It would appear from first blush that the independent
    OPO' s would be the most complex towards determination
    of a fixed cap for costs. All the variables previously
    encountered in establishing DRG' s in hospitals, plus
    several new ones, would have to be thoroughly
    researched and studied before effectuating a
    may even be found that the establishment of a DRG.
                                                   DRG inIt
    the RTC setting is appropriate, but not
    independent OPO.                         so, for an

2. Recommendation:

  Conduct priority audits of kidney acquisition expendi-
  tures of those renal transplant centers that HCFA has
  designated as organ procurement organizations.
         Commentary€
         We are in basic agreement wi h this recommendation and€
         have been working with the Division of Transplantation,€
        HCFA            (Baltimore),

        potential review. We                        to    establish   various aspects for€
                               intend to continue this endeavor€
        during the year, providing whatever information we€
        can. It should be pointed out that this point could also€
        be a beginning or climax to the recommendation, noted as€
        numer one (1) above, serving to eliminate unnecessary€
        items, of cost and weed out or at
        inefficient operations.€          least, identify€

3. Recommendation: €

       Establish more consistent and rigorous oversight of€
       the HCFA certified organ procurement
                                                                           organizations.€
       Commentary€
       As brought out
                                           in     the elaboration of the comment€
       wi thin your repor , the complexities of the€
       Administration, necessary cooperation and ultimate€
       rUling authority for making determinations and adjust-€
       ments, needs to be explored more fUlly before this€
       recommendation can be evaluated
                                        further.€
4. Recommenda tion:€

       Move towards the establishment
                                      .of only one
       certified laboratory for pre-transplant     (1) Medicare€
                                                testing in€
       each OPO service area '
       Commentary€
  The recommendation certainly would provide for cost€
   efficiencies €
               in pre-tranplant testing and eliminate€
  much of the duplicate testing and reimbursement that€
   accompanies such acti €
                        vi       However,
   speed of test availability, ease       issues
                                    of access  to such as€
                                                  testing€
                                                           ties.
   facilities upon donor identification, and
   as well as, facility reliance on           physician,€
                                    another,
      hodologies and test results complicate the                              entities€
  It  is
                                                  situation.€
         not known whether or not legislating a single  lab€
  in        each area would solve the issues or would €

   o extend the time frames involved in donor                                       only   serve€
  impacting the acquisition levels                                                 procurement,€
                                                                      adversely.
5. Recommendation:€

      Establish for reimbursement purposes, a standardized
      nomenclature of pre-transplant laboratory   tests.
      Commentary
      We have supported the establishment of common€
      nomenclature for laboratory tests in the
                                                 past, and will€
      continue , to do so. However, the complexity  of the
      testing and the methodologies used in developing the
      various tests and results €
                                  is beyond the technical
      expertise of the intermediary     It is our understanding
      that ASHI is moving towards this end now, and that UNOS
      may have an impact also. Any effcrts on the part of€
      HCFA to assist this process could help to achieve the€
      ul timate goal quicker. There is little doubt that
      standard nomemclature would be of a benefit to the
      Program, the intermediary, and probably to beneficiaries
      who are covered under the renal program.



/jc
                             APPENQJ
                                      ENNOT€
       It focused on kidney transplantation because at the time the study was
       conducted Medicare reimbursement was not yet available for other kids       of
       transplantation.

       See OIG, " Organ Acquisition Costs: An Overvew " OAI-01- 8600108, pp.

       Information obtained from Aetna, the Medicae intermediary responsible for
      oversight of independent OPOs.

      Offce of Research ,   Health Care Financing Administration.

      It would probably be advisable to limit the demonstrations to kidney
      acquisition , since there is a larger historical base of data and a larger number
      transplants to rely upon. However, HCF A might consider the feasibilty of a
      separate demonstration involving acquisition costs for hearts used for
      transplantation. Heart transplants have been covered under Medicae for the
      past 3 years , with acquisition ' costs payable on a reasonable cost basis as they
      are for kidneys.



      Here , agai , we focus on kidney expenditures because they represent the great
      majority of Medicare reimbursed organ acquisition expenditures. The HCF A .
      might consider whether or not it would be feasible to include expenditures for
      the acquisitions of hearts in some or even all of the priority audits.

      In our 1987 report at a time when kidney waiting lists were much shorter, we
      estimated that these laboratory costs accounted for about 20 percent of kidney
      acquisition costs.

      For example ,  they are unable to compare how much diferent laboratories are
      reporting for the same test.

      In response to our 1987 report,  the American Society for Histocompatibilty
      and Imunogenetics (ASHI)       indicated that it was workig on the development
      of a standardized nomenclature and would be wiling to work with HCF A and
      the intermediary in this regard.

10.   We cited the example of one metropolitan area where each of five renal
      transplant centers conducts the same basic tests involving a donor organ each
      time such an organ becomes available. The process , we were told, could add
      up to eight extra hours to the organ procurement process.
While other reviewers expressed suppQUr this recommendation , Aetna
manager of Medicare Administration (who is responsible for fiscal oversight for
the independent OPOs) expressed some reservtion, especially with respect
the possible impact on time frames. On the basis of the areas we have visited
with single pretransplant laboratories, the process seems to work rather
effciently, certinl more so than in the cae cited above with five such
laboratories.
